. /
\

■5*.

Case No.:

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-A

!

si

V
Case: 19-14797

Date peafi 2)4/29/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
o

FOR THE ELEVENTH CIRCUIT

No. 19-14797-B

JUAN FRANCISCO VEGA.
Petitioner-Appellant,
versus
SECRETARY OF THE FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida

Before: WILSON, JORDAN, and BRANCH, Circuit Judges.
Juan Francisco Vega appeals from the U.S. District Court for the Middle District of
Florida’s denial of his pro se “Motion to Reinstate Case and to Appoint Counsel,5' which he filed
after the district court transferred his 28 U.S.C. § 2254 petition to the Southern District of Florida.
The jurisdictional issues raised in the question that we issued to the parties are CARRI ED WITH
THE CASE. A final determination regarding jurisdiction will be made by the panel to whom this
appeal is submitted after briefing on the merits concludes. In further briefing, the parties are not
required to discuss the jurisdictional questions in great detail, but they may address them as they
deem necessary or appropriate.

. k.,

Case: 19-14797

Date Filed: 06/26/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 1.9-14797-B
JUAN FRANCISCO VEGA,
Petitioner-Appellant,
versus
SECRETARY OF THE FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
Respondent-Appellee.’
Appeal from the United States District Court
for the Middle District of Florida
Before: MARTIN and JILL PRYOR, Circuit Judges.
•

BY THE COURT:
Juan

Francisco Vega has filed a motion for reconsideration,

pursuant to

11th Cir. R. 22-1 (c) and 27-2, of this Court’s order dated May 28, 2020, denying his motions for
a certificate of appealability, leave to proceed in forma pauperis, and appointment of counsel, in
his appeal from the district court’s denial of his Fed. R. Civ. P. 60(b) motion to reinstate his case
and appoint counsel. Because Vega has not alleged any points of law or fact that this Court
overlooked or misapprehended in denying his motions, his motion for reconsideration is DENIED.

• v-

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-B

a .
Case: 19-14797

Date pouf:2)5/28/2020

Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14797-B

JUAN FRANCISCO VEGA,
Petitioner-Appellant,
versus

SECRETARY OF THE FLORIDA DEPARTMENT OF
CHILDREN AND FAMILIES,
Respondent-Appel lee.

Appeal from the United States District Court
for the Middle District of Florida
ORDER:
A Florida court ordered Juan Francisco Vega detained pursuant to Florida’s
Jimmy Ryce Act, which permits a court to commit a person determined to be “a
sexually violent predator... for control, care, treatment, and rehabilitation.” Fla.
Stat. § 394.917(2). In July 2019, Mr. Vega challenged the constitutionality of his
confinement through a 28 U.S.C. § 2254 habeas corpus petition filed in the U.S.
District Court for the Middle District of Florida.

,» .

Case: 19-14797

Date pad:3^5/28/2020

Page: 2 of 4

The District Court, acting pursuant to 28 U.S.C. § 2241(d), transferred Mr.
Vega’s petition to the Southern District of Florida because his order of civil
confinement was entered by a state court within that district, and he already had a
§ 2254 petition related to this matter pending in that district. The transferee court
dismissed Mr. Vega’s petition as duplicative of his previous § 2254 petition.
Mr. Vega then moved to reinstate his § 2254 petition in the Middle District
of Florida. In his motion to reinstate, Mr Vega noted that the District Court’s
decision to transfer his case was correct but disagreed with it because the Southern
District of Florida’s dismissal of his transferred petition made it clear that court did
not want the case.” The District Court construed Mr. Vega’s motion to reinstate
as a motion for relief from a judgment or order pursuant to Federal Rule of Civil
Procedure 60(b), which it denied. The court also denied Mr. Vega a certificate of
appealability (“COA”).
Mr. Vega now seeks a COA to appeal the denial of his Rule 60(b) motion.1
In order to receive the COA, he must “ma[ke] a substantial showing of the denial

In general, denial of a Rule 60(b) motion is a final appealable order. See Gulf Coast
Fans, Inc, v. Midwest Elecs. Imps.. Inc.. 740 F,2d 1499, 1507 (1 Ith Cir. 1984). However, an
order transferring a habeas petition pursuant to § 2241(d) is not a final appealable order. Dobard
v. Johnson, 749 F.2d 1503, 1507 (11th Cir. 1985). For purposes ot this proceeding, I assume Mr.
Vega’s motion for a COA is properly before the Court. See Mountain Valiev Prop,. Inc, v.
Applied Risk Servsr, Inc., 863 F.3d 90, 94 (1st Cir. 2017) (assuming decision below was final
and appealable and proceeding to the merits); 15A Charles Alan Wright et ah, Federal Practice &
Procedure § 3905 (2d ed. Apr. 2020 update) (stating it is “clearly appropriate” for courts “to
affirm a judgment if the result on the merits is easier to reach than a thorny question of
jurisdiction” under the final judgment rule); see also Gonzalez v. Sec’v for Dep’t ofCorr.. 366
2

'vS

*,

Case: 19-14797

Date Pad:5)5/28/2020

Page: 3 of 4

of a constitutional right.” 28 U.S.C. § 2253(c)(2). Because the District Court
denied his claim on procedural grounds without reaching the underlying
constitutional claim, he must show that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the [District [Cjourt was
correct in its procedural ruling.” Slack v. McDaniel. 529 U.S. 473, 484, 120 S. Ct.
1595, 1604 (2000). Importantly, analysis of a COA “is not coextensive with a
merits analysis,” and denying a COA by reaching the merits of an appeal is,
essentially, “deciding an appeal without jurisdiction.” Buck v. Davis. 580 U.S.
, 137 S. Ct. 759, 773 (2017) (quotation marks omitted).
Rule 60(b) provides that “the court may relieve a party or its legal
representative from a final judgment, order, or proceeding” based on:
(!) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could
not have been discovered in time to move for a new trial under Rule
59(b);
(3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;

F.3d 1253,1263 (11 th Cir. 2004) (en banc) (discussing the requirement that a habeas petitioner
receive a COA for denial of a Rule 60(b) motion), affd sub nom. Gonzalez v. Crosbv. 545 U .S
524, 125 S, Ct. 2641 (2005).
3

-c-

,

Case: 19-14797

Date Ifflaaf:5)5/28/2020

Page: 4 of 4

(5) the judgment has been satisfied, released, or discharged; it is based
on an earlier judgment that has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.
Mr. Vega’s motion to reinstate could only plausibly be construed as seeking
relief under paragraph (6). “Rule 60(b) vests wide discretion in courts” and relief
under paragraph (6) “is available only in extraordinary circumstances.” Buck, 137
S. Ct. at 777 (quotation marks omitted). The movant must show “that absent such
relief, an extreme and unexpected hardship will result.” Doe v, Drummond Co..
782 F.3d 576, 612 (11th Cir. 2015) (quotation marks omitted).
Reasonable jurists would not debate the District Court’s denial of Mr.
Vega’s Rule 60(b) motion. In his motion before the District Court, Mr. Vega
agreed the District Court “did the right thing” by transferring his case to the
Southern District of Florida. He has not established that, despite the correctness of
the District Court’s decision, exceptional circumstances warrant relief. As a result,
he has failed to show he is entitled to a COA.
Mr. Vega’s motion for a COA is DENIED. His motions for leave to
proceed in forma pauperis and for appointment of counsel are DENIED as moot.

UNITED SPATES
TIT JUDGE
JUDGE
ATES CIRCt
CIRCUIT

4

Case No.:

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-C

, .w ►’ *

Case: 19-14819

Date Filed: 04/02/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14819-G
JUAN FRANCISCO VEGA,
Petitioner-Appellant,
versus
SECRETARY OF THE FLORIDA DEPARTMENT
OF CHILDREN AND FAMILIES,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida

Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Juan Vega has filed a motion for reconsideration, pursuant to 1 ltli Cir. R. 22- 1(c) and 27-2,
of this Court's February 13, 2020, order denying a certificate of appealability and leave to proceed
on appeal in forma pauperis in his appeal of the district court’s denial of his pro se construed 28
U.S.C. § 2241 habeas corpus petition.

Upon review, Vega’s motion for reconsideration is

DENIED because he has offered no new evidence or arguments of merit to warrant relief.

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-D

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-E
V

•v,

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
JUAN FRANCISCO VEGA
Petitioner,

v.

Case No.: 2:19-cv-497-FtM-38MRM

REBECCA KAPUSTA,
Respondent.
ORDER1
Before the Court is Petitioner’s Motion for Leave to Appeal in forma pauperis (Doc.
19) filed January 16, 2020. Although the Motion is captioned as being filed in the “United
States Court of Appeals for the Eleventh Circuit” (see id.), because Petitioner filed the
Motion with this Court, the Court will address it in an abundance of caution.
In his Motion, Petitioner states that the Southern District declined jurisdiction of his
petition for writ of habeas corpus transferred from this Court.

(Id.).

Consequently,

Petitioner seeks to proceed in forma pauperis on appeal from this Court’s September 18,
2019, Order of Transfer. (Id.). Contrary to Petitioner’s assertion, the Southern District
agreed to “exercise[ ] jurisdiction” but dismissed his petition as duplicative of Petitioner’s
petition in case no. 18-20729-cv-Altonga, which was also pending before the Southern
District. See Case No. 1:19-cv-23891-RNS, S.D. Fla., Order dated October 30, 2019
(Doc. 13). The Court previously found that Petitioner is not entitled to a certificate of

1

Disclaimer: Documents hyperlinked to CM/ECF are subject to PACER fees. By using hyperlinks, the
Court does not endorse, recommend, approve, or guarantee any third parties or the services or products
they provide, nor does it have any agreements with them. The Court is also not responsible for a hyperlink’s
availability and functionality, and a failed hyperlink does not affect this Order.

‘,

appealability concerning this Court’s September 18, 2019 Order of Transfer. (Doc. 17).
Because Petitioner is not entitled to a certificate of appealability, Petitioner may not
proceed in forma pauperis on appeal.
Accordingly, it is now
ORDERED:

1.

To the extent Petitioner seeks leave to appeal in forma pauperis (Doc. 19)

from this Court, the Court DENIES the Motion.
2.

The Clerk shall forward a copy of this Order to the Clerk for the Eleventh

Circuit.
DONE and ORDERED in Fort Myers, Florida this 17th day of January 2020.

' SHERI POLSTER CHAPFEbL—' 1
UNITED STATES DISTRICT JUDGE
SA: FTMP-1
Copies: All Parties of Record

2

r’

Case No.:

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-F

’

Case 2:19-cv-00497-SPC-MRM Document 17 Filed 12/11/19 Page 1 of 2 Page ID 69

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
JUAN FRANCISCO VEGA,
Petitioner,
v.

Case No.: 2:19-cv-497-FtM-38MRM

REBECCA KAPUSTA
Respondent.
ORDER1
Before the Court is Petitioner’s Notice of Appeal and Application for Certificate of
Appealability (Doc. 15) filed December 2, 2019.

Petitioner seeks a certificate of

appealability from this Court as to two separate orders: (1) the October 25, 2019 order
entered by the United States District Court in the Southern District of Florida allegedly
dismissing his habeas petition; and (2) this Court’s November 19, 2019 Order (Doc. 13)
declining to reconsider its September 18, 2019 Order of Transfer and reinstate his petition
in this Court.
To the extent Petitioner seeks to appeal the October 25, 2019 Order entered by
the United States District Court for the Southern District of Florida, he must obtain a
certificate of appealability from that court. See Fed. R. App. Pro. 22(b)(1). To the extent
Petitioner seeks a certificate of appealability in connection with this Court’s November 19,
2019 Order (Doc. 13), the Court finds no grounds to issue a certificate of appealability.

1 Disclaimer: Documents hyperlinked to CM/ECF are subject to PACER fees. By using hyperlinks, the

Court does not endorse, recommend, approve, or guarantee any third parties or the services or products
they provide, nor does it have any agreements with them. The Court is also not responsible for a hyperlink’s
availability and functionality, and a failed hyperlink does not affect this Order.

Case 2:19-cv-00497-SPC-MRM Document 17 Filed 12/11/19 Page 2 of 2 PagelD 70

The Court denied reconsideration of its September 18, 2019 Order (Doc. 8), which
transferred Petitioner’s petition under 28 U.S.C. § 2241(d) to the United States District
Court for the Southern District of Florida. An appeal is permissible only from a “final order”
in a habeas proceeding. 28 U.S.C. § 2253. A final order is “one which ends the litigation
on the merits and leaves nothing for the court to do but execute the judgment.” Catlin v.
United States, 324 U.S. 229, 233 (1945) (construing section 128 of the Judicial Code, 28
U.S.C. § 225(a)). The Court’s transfer order did not render judgment on the merits of
petitioner's claim for habeas relief. Instead it transferred a case still alive and permitted
it to proceed in the Southern District. The order transferring the petition to that court is
not a final, appealable order. Dobard v. Johnson, 749 F.2d 1503, 1507 (11th Cir.1985)
(transfer orders made under § 2241(d) not appealable, final orders). Instead, transfer
orders are “nonreviewable interlocutory orders.” Id. By implication, the Court’s denial of
reconsideration of its September 18, 2019 transfer order is not reviewable. Further, the
Southern District acknowledged it had jurisdiction over the petition. This Court’s order of
transfer was proper. Petitioner cannot show this Court’s procedural rulings are debatable
among reasonable jurists. Slack v. McDaniel, 529 U.S. 473, 483-84 (2000).
Accordingly, it is now ORDERED:
Petitioner’s Motion for Certificate of Appealability (Doc. 15) is DENIED.
DONE and ORDERED in Fort Myers, Florida this 11th day of December, 2019.

UNITED STATES DISTRICT JUDGE
SA: FTMP-1
Copies: All Parties of Record

2

-•A

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-G

•As '•

Case l:19-cv-23891-RNS Document 16 Entered on FLSD Docket 12/03/2019 Page 1 of 1

United States District Court
for the
Southern District of Florida
Juan Francisco Vega, Petitioner,
)

v.

) Civil Action No. 19-23891-Civ-Scola

Rebecca Kapusta, Respondent.

)

J udgment
The Court has dismissed this case. (Order, ECF No. 13.) The Court now
enters judgment in favor of the Defendant and against the Plaintiff, as required by
Federal Rule of Civil Procedure 58. The Court directs the Clerk to close this case.
All pending motions, if any, are denied as moot.
Done and ordered at Miami, Florida, on December 2, 2019.

Robert N. Scola, Jr.
United States District Judge

K 'A.

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-H

Case 2:19-cv-00497-SPC-MRM Document 13 Filed 11/19/19 Page 1 of 2 PagelD 54

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
JUAN FRANCISCO VEGA,
Petitioner,
v.

Case No.: 2:19-cv-497-FtM-38MRM

REBECCA KAPUSTA, .
Respondent.
ORDER1
Before the Court is Petitioner’s Motion to Reinstate Case and Appoint Counsel
filed November 12, 2019. (Doc. 11). Petitioner submits with his Motion a petition (Doc.
12) for the Court’s consideration. Petitioner requests the Court to accept and reinstate
his habeas petition that the Court transferred to the United States District Court for the
Southern District of Florida on September 18, 2019. (See Doc. 8). Petitioner states he
agrees with the Court’s decision to transfer his habeas petition but seeks reconsideration
of the Order because the Southern District of Florida “doesn’t want the case.” (Doc. 11
at 1).
The Court takes judicial notice the Southern District of Florida determined it had
jurisdiction over Petitioner’s transferred habeas petition, but dismissed the petition finding
1

Disclaimer: Documents filed in CM/ECF may contain hyperlinks to other documents or
websites. These hyperlinks are provided only for users’ convenience. Users are
cautioned that hyperlinked documents in CM/ECF are subject to PACER fees. By
allowing hyperlinks to other websites, this Court does not endorse, recommend, approve,
or guarantee any third parties or the services or products they provide on their websites.
Likewise, the Court has no agreements with any of these third parties or their websites.
The Court accepts no responsibility for the availability or functionality of any hyperlink.
Thus, the fact that a hyperlink ceases to work or directs the user to some other site does
not affect the opinion of the Court.

Case 2:19-cv-00497-SPC-MRM Document 13 Filed 11/19/19 Page 2 of 2 Page ID 55

it duplicative of Petitioner’s § 2254 petition in case no. 18-20729-cv-Altonga. See Vega
v. Kapusta, No. 19-23891-Civ-Scola (S.D. Fla. Oct. 23, 2019), rejecting report and
recommendation. Here, the Southern District ruled on Petitioner’s petition. The Court
finds no grounds to reconsider its September 18, 2019 Order of Transfer under Fed. R.
Civ. P. 60(b) and finds under the law-of-the-case doctrine no basis to disturb the decision
by the United States District Court for the Southern District of Florida.

Messinger v.

Anderson, 225 U.S. 436, 444 (1912); Arizona v. California, 460 U.S. 605, 618 ri. 8 (1983).
Accordingly, it is now
ORDERED:
Petitioner’s Motion to Reinstate Case and Appoint Counsel (Doc. 11) is DENIED
in its entirety and the Clerk shall strike and return Petitioner’s petition (Doc. 12).
DONE and ORDERED in Fort Myers, Florida this 19th day of November, 2019.

' SHERI POLSTERCHAPPEfct—' 1
UNITED STATES DISTRICT JUDGE

SA: FTMP-1
Copies: All Parties of Record

2

-■A,,

■i'

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES
RESPONDENT / APPELLEE.

APPENDIX-I

-^5.
Case l:19-cv-23891-RNS Document 13 Entered on FLSD Docket 10/30/2019 Page 1 of 3

United States District Court
for the
Southern District of Florida
Juan Francisco Vega, Petitioner,

)

v.

) Civil Action No. 19-23891-Civ-Scola

Rebecca Kapusta, Respondent.
Order Rejecting Magistrate Judge’s Report and Dismissing Case
This case was referred to United States Magistrate Judge Lisette M. Reid,
consistent with Administrative Order 2019-02 of this Court, for a ruling on all
pre-trial, nondispositive matters and for a report and recommendation on any
dispositive matters. On September 20, 2019, Judge Reid issued a Report and
Recommendation recommending that the case be dismissed for lack of
jurisdiction and the Petitioner be directed to file his claim in the Middle District
of Florida. (ECF No. 11 at 3.) For the reasons discussed below, the Court
declines to adopt Judge Reid’s Report.
I.

Procedural History

The instant petition was originally filed in the Middle District of Florida
challenging the Petitioner’s civil commitment under the Jimmy Ryce Act, Fla.
Stat. § 394.910. (ECF No. 1 at 2.) The Petitioner is currently confined in
Arcadia, Florida, which is located in the Middle District of Florida. The
Petitioner seeks to challenge the Second District Court of Appeals’ affirmance of
the Twelfth Judicial Circuit’s Order denying his state court petition for writ of
habeas corpus. (ECF Nos. 1-1, 1-2.) On September 18, 2019, the Middle
District of Florida transferred this case to the Southern District of Florida
pursuant to 28 U.S.C. § 2241(d). (ECF No. 8.) The court reasoned that the
Petitioner is challenging an order of civil commitment originally entered by the
state court in Miami-Dade County. (Id. at 2.) Therefore, it should be transferred
to the Southern District.
On September 20, 2019, Judge Reid issued a Report and concluded that
the Petitioner is required to file any action pursuant to 28 U.S.C. § 2241(d) in
the district of confinement, the Middle District in this case, not the Southern
District of Florida. (ECF No. 11 at 2.) Moreover, according to Judge Reid’s
Report, the civil confinement determination that Petitioner is challenging took
place in DeSoto County, which is also in the Middle District. (Id. at 3.)
Therefore, the case should be filed in the Middle District.

Case l:19-cv-23891-RNS Document 13 Entered on FLSD Docket 10/30/2019 Page 2 of 3

II.

Analysis

Under to 28 U.S.C. § 2241(d), an application for a writ of habeas corpus
may be filed “in the district court for the district wherein such person is in
custody or in the district court for the district within which the State court was
held which convicted and sentenced him and each of such district courts shall
have concurrent jurisdiction to entertain the application.” The Petitioner is in
custody in the Middle District of Florida and the original order of civil
confinement that he is challenging was entered in Miami-Dade County. See
Vega u. Attorney General of Fla., Case No. 20729-cv-Altonaga (S.D. Fla. Feb. 26,
2019) (ECF No. 1). Therefore, the Southern District and the Middle District
have concurrent jurisdiction under 28 U.S.C. § 2241(d).
The question before this Court is whether the Southern District should
exercise jurisdiction or, as recommended by Judge Reid, this should be sent
back to the Middle District.1 “Certainly, the decision of a transferor court
should not be reviewed again by the transferee court.” In re Cragar Indus., Inc.,
706 F.2d 503, 505 (5th Cir. 1983). “Such an independent review would
implicate those concerns which underlie the rule of repose and decisional order
we term the law of the case.” Id. A district court should only re-transfer a case
under “the most impelling and unusual circumstances or if the transfer order
is manifestly erroneous.” Id. (citations and quotations omitted). Moreover, re­
transferring a case has “the potential mischief of tossing cases back and forth
to the detriment of an adjudication of the underlying merits of the case and
respect due sister courts.” Id.
Here, the Court finds that the Middle District’s transfer was not clearly
erroneous because the two courts have concurrent jurisdiction under 28 U.S.C.
§ 2241(d). There are no unusual circumstances or impelling reasons to re­
transfer or decline to exercise jurisdiction over this matter. Accordingly, the
Court declines to adopt Judge Reid’s Report.
The Court will also consider the merits of the Petitioner’s case. The
Petitioner challenges his civil confinement on four grounds: (1) the trial court
erred in discarding the jury verdict; (2) ineffective assistance of counsel on
appeal; (3) the Jimmy Ryce Act is unconstitutional; and (4) the criminal
convictions used for the civil commitment were over 20 years old and barred by
1 The Court notes that Judge Reid’s Report does not recommend “transferring”
the case but rather recommends that this Court dismiss this case and direct
the Petitioner to refile his case in the Middle District. (ECF No. 11 at 3.) This is,
practically speaking, the same as a transfer, except that it prejudices the
Petitioner by imposing new hurdles and a new filing fee if he were to refile this
case.

Case l:19-cv-23891-RNS Document 13 Entered on FLSD Docket 10/30/2019 Page 3 of 3

the statute of limitations. (ECF No. 1 at 1-2.) In the related § 2254 case
pending before Judge Altonaga, the Petitioner seeks relief based on the same
four grounds, in addition to a number of other claims. (See Case No. 18-20729,
ECF No. 1 at 3-7.) Accordingly, the Court finds this case duplicative of the
Petitioner’s § 2254 petition in Case No. 18-20729-cv-Altonaga and is due to be
dismissed.
III.

Conclusion

Based on the foregoing, the Court rejects Judge Reid’s Report (ECF No.
11) and exercises jurisdiction over this case. The Court dismisses the petition
(ECF No. 1) as duplicative of Case No. 18-20729-cv-Altonaga currently pending
in the Southern District of Florida. The Clerk is directed to close this case.
Done and ordered, at Miami, Florida, on October 30, 2019.

Robert N. Scola, Jr.
United States District Judge

Case No.:.

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-J

«

Case 2:19-cv-00497-SPC-MRM Document 8 Filed 09/18/19 Page 1 of 2 PagelD 34

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
JUAN FRANCISCO VEGA,
Petitioner,
Case No.: 2:19-cv-497-FtM-38MRM

v.
REBECCA KAPUSTA,
Respondent.

OPINION AND ORDER1
This matter comes before the Court upon initial review of the file. Petitioner, who
is civilly committed to the Florida Civil Commitment Center, initiated this action on July
18, 2019 by filing a Petition (Doc. 1), Petitioner contends that his civil commitment is
unconstitutional on the ground that his underlying criminal conviction that was used as a
qualifier and resulted in an order of involuntary civil commitment was barred by the civil
statute of limitations. (Doc. 1 at 2). Petitioner acknowledges that his underlying qualifying
conviction and the order of civil commitment were entered by the Eleventh Judicial Circuit
Court, which is in Miami, Florida. (Id. at 3). Petitioner further states, and the Court’s files
reflect, that Petitioner currently has a habeas corpus petition pursuant to 28 U.S.C. § 2254
pending in the United States District Court for the Southern District of Florida, Miami

1

Disclaimer: Documents filed in CM/ECF may contain hyperlinks to other documents or
websites. These hyperlinks are provided only for users’ convenience. Users are
cautioned that hyperlinked documents in CM/ECF are subject to PACER fees. By
allowing hyperlinks to other websites, this Court does not endorse, recommend, approve,
or guarantee any third parties or the services or products they provide on their websites.
Likewise, the Court has no agreements with any of these third parties or their websites.
The Court accepts no responsibility for the availability or functionality of any hyperlink.
Thus, the fact that a hyperlink ceases to work or directs the user to some other site does
not affect the opinion of the Court.

i—+»

^

Case 2:19-cv-00497-SPC-MRM Document 8 Filed 09/18/19 Page 2 of 2 PagelD 35

Division, in which he is challenging his civil commitment on three other grounds. (Id. at
1-2; see case number 1:18-cv-20729-CMA).
The Court finds in “its discretion and in furtherance of justice” this action should be
transferred to the United States District Court for the Southern District of Florida, Miami
Division because Petitioner is challenging the order of civil commitment entered by the
state circuit court in and for Miami-Dade County, Florida and currently has a habeas
petition pending in that Court. 28 U.S.C. § 2241 (d).
Accordingly, it is hereby
ORDERED:
1. Pursuant to 28 U.S.C. § 2241(d), this case is transferred to the United States
District Court for the Southern District of Florida, Miami Division for all further proceedings.
2. The Clerk of Court shall: 1) immediately forward the file to that Court; 2)
terminate any outstanding motions; and, 3) close this file.
DONE and ORDERED in Fort Myers, Florida this 18th day of September, 2019.

' SHERI POLSTERCHAPPEtV-" '
UNITED STATES DISTRICT JUDGE

SA: FTMP-1
Copies: All Parties of Record

2

Case No.:

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER / APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT / APPELLEE.

APPENDIX-K

*v

PETITION UNDER TITLE 28 U.S.C. § 2254 FOR WRIT OF
HABEAS CORPUS BY A PERSON IN STATE CUSTODY

District: Southern District of Florida

United States District Court

Name (under which you were convicted): Juan Francisco Vega

Docket or Case No.: 1:18-CV-20729-CMA

Place of confinement: Florida Civil Commitment Center,
13619 S.E. Highway 70, Arcadia, FL 34266

Prisoner No.: 991353

Petitioner (name under which you were convicted):
Juan Francisco Vega

v.

Respondent (person having custody of petitioner):
MikeCarroll, Secretary, Dept, of Child. & Fam.

The Attorney General of the State of Florida: Pamela Jo Bondi.

AMENDED PETITION
1. (a) Name and location
- r

of court that entered the judgment of conviction that you are currently challenging.

Florida Eleventh Judicial Circuit Court, 1351 N.W. 12th Street, Miami, FL 33125.
(b) Criminal docket or case number (if you know): 09-50922CA25.
2.

(a) Date of the judgment of conviction (if you know): February 21,2013.
(b) Date of sentencing: February 21,2013.

3. Length of sentence: Indefinite.
4. In this case, were you convicted on more than one count or more than one crime: [ ]

Yes

[ ]

No

5. Identify all crimes of which you were convicted and sentenced in this case: Case number 86-4671 (sexual
battery); Case number 85-32541 (sexual battery); Case number 85-32540 (sexual battery); and Case
number 85-32539 (sexual battery).
6

(a) What was your plea? (Check one)
[ ] (1) Not guilty

[ ]

(3) Guilty

[ ] (2) Nolo contendere

[ ]

(4) Insanity plea

“f.

2
(b) If you entered a guilty plea to one count or charge and not guilty plea to another count or charge, what
did you plead guilty to and what did you plead not guilty to? N/A
(c) If you went to trial what kind of trial did you have? (Check one)
[ ]

Jury

[ ]

Judge only

7. Did you testify at a pretrial hearing, trial, or post-trial hearing?
[ ]

Yes

[ ]

No

[ ]

No

8. Did you appeal from the judgment of conviction?
[ ]

Yes

9. If you did appeal, answer the following:
(a) Name of Court: Florida Third District Court of Appeal.
(b) Docket or case number (if you know): 3D13-838.
(c) Result: Per Curiam Affirmed.
(d) Date of result (if you know): March 11, 2015; Rehearing denied on March 24, 2017.
(e) Citation to the case (if you know): 189 So.3d 781.
(f) Grounds raised: THE TRIAL COURT’S ACTION IN DISCARDING A JURY VERDICT FOR
THE PETITIONER AND ENTERING ITS OWN VERDICT FOR THE STATE AND THEN
CIVILLY COMMITTING HIM, WAS UNAUTHORIZED AND IN DEROGATION OF THE
CONSTITUTION, STATE STATUTE, AND RULE .
(g) Did you seek further review by the higher state court?
If yes, answer the following:
(1) Name of court: N/A
(2) Docket or case number (if you know):
(3) Result: N/A
(4) Date of result (if you know): N/A
(5) Citation to the case (if you know): N/A

N/A

[ ]

Yes

[.]

No

3

(6) Grounds raised: N/A

I

(h) Did you file a petition for certiorari in the United States Supreme Court?

[ ]

Yes

[ ]

No

If yes, answer the following:
(1) Docket or case number (if you know): 16-9297.
(2) Result: Denied.
(3) Date of result (if you know): October 2, 2017.
(4) Citation to the case (if you know): Don’t know.
10. Other than the direct appeals listed above, have you previously filed any other petitions, applications, or
motions concerning this judgment of conviction in any state court?

[ ]

Yes

[ ]

No

11. If your answer to Question 10 was “Yes,” give the following information:
(a) (1) Name of court: Florida Third District Court of Appeal.
(2) Docket or case number (if you know): 3D13-838 (same docket number as direct appeal).
(3) Date of filing (if you know): April, 2017.
(4) Nature of the proceeding: Petition for Writ of Habeas Corpus on Ineffective Assistance of
Appellate Counsel.
(5) Grounds raised: HAD APPELLATE COUNSEL ARGUED ON DIRECT APPEAL (IN THE
INITIAL BRIEF) THAT THE STATE DID NOT ADEQUATELY PRESERVE ITS CLAIM TO
HAVE THE VERDICT REDIRECTED AND THAT THERE WAS CONFLICTING
TESTIMONY OF EXPERT WITNESSES PRECLUDING A DIRECTED VERDICT, THE
OUTCOME OF THE PROCEEDING WOULD HAVE BEEN DIFFERENT.
(6) Did you receive a hearing where evidence was given on your petition, application, or motion?
[ ]

Yes

[ ]

No

(7) Result: Denied.
(8) Date of result (if you know): June 1, 2017.
(b) If you filed any second petition, application, or motion, give the same information:

4

(1) Name of court : Florida Eleventh Judicial Circuit Court.
.o'

(2) Docket or case number (if you know): 09-50922CA25.
(3) Date of filing (if you know): February, 2016.
(4) Nature of the proceeding: Petition for Annual Review of Involuntary Civil Commitment
(5) Grounds raised:

THE JIMMY RYCE ACT IS UNCONSTITUTIONAL FOR HAVING

UTILIZED THE CONJUNCTION “OR” IN SECTION 394.912 SUBSECTION (10) (B),
FLORIDA STATUTES; FOUCHA V. LOUISIANA, 504 U.S. 71 (1992) DEMONSTRATES
THAT FOR THERE TO BE AN INVOLUNTARY CIVIL COMMITMENT THE ELEMENTS
OF A MENTAL ABNORMALITY “AND” PERSONALITY DISORDER MUST EXIST AND
MUST BE PROVEN.
(6) Did you receive a hearing where evidence was given on your petition, application, or motion?
[ ]

Yes

[ )

No

(7) Result: Denied.
(8) Date of result (if you know): March 3,2016.
(c) If you filed any third petition, application, or motion, give the same information:
(1) Name of court : N/A
(2) Docket or case number (if you know): N/A
(3) Date of filing (if you know): N/A
(4) Nature of the proceeding: N/A
(5) Grounds raised: N/A
(6) Did you receive a hearing where evidence was given on your petition, application, or motion?
[ ]

Yes

[ ]

No

(7) Result: N/A
(8) Date of result (if you know): N/A
(d) Did you appeal to the highest state court having jurisdiction over the action taken on your petition,

